             Offices of
         Inspector General


           Department of the Treasury
      Federal Deposit Insurance Corporation
Board of Governors of the Federal Reserve System
    and Consumer Financial Protection Bureau



      Status of the Transfer of
Office of Thrift Supervision Functions


                   OIG-13-035
                   AUD-13-005
                  2013-IE-B-003

                  March 27, 2013
Contents


Audit Report

  Background ..............................................................................................       2

  Results of the Joint Review ........................................................................            4

      Additional OCC Certification for Certain Transferred OTS Examiners ...........                              4

      FRB Supervisory Assessments ................................................................                5

  Management Response ..............................................................................              6

Appendices

  Appendix     1:      Objective, Scope, and Methodology ......................................                  8
  Appendix     2:      Joint Reports Issued Pursuant to Section 327 ........................                    10
  Appendix     3       FRB Management Comments ...............................................                  11
  Appendix     4:      OCC Management Comments ..............................................                   12
  Appendix     5:      Major Contributors to This Report .........................................              13
  Appendix     6:      Report Distribution ..............................................................       14

Abbreviations

  FDIC                     Federal Deposit Insurance Corporation
  FRB                      Board of Governors of the Federal Reserve System
  FTR                      Federal Thrift Regulator
  NBE                      National Bank Examiner
  OCC                      Office of the Comptroller of the Currency
  OIG                      Office of Inspector General
  OTS                      Office of Thrift Supervision
  Plan                     Joint Implementation Plan
  UCE                      Uniform Commission Examination




                       Status of the Transfer of Office of Thrift Supervision Functions                       Page i
         This Page Intentionally Left Blank.




Status of the Transfer of Office of Thrift Supervision Functions   Page ii
Offices of Inspector General


March 27, 2013

Ben S. Bernanke, Chairman
Board of Governors of the Federal Reserve System

Martin J. Gruenberg, Chairman
Federal Deposit Insurance Corporation

Thomas J. Curry, Comptroller of the Currency
Office of the Comptroller of the Currency

This report presents the results of our offices’ fifth joint review of
the transfer, pursuant to Title III of the Dodd-Frank Wall Street
Reform and Consumer Protection Act (Dodd-Frank Act or the Act),
of the functions, employees, funds, and property of the former
Office of Thrift Supervision (OTS) to the Board of Governors of the
Federal Reserve System (FRB), the Federal Deposit Insurance
Corporation (FDIC), and the Office of the Comptroller of the
Currency (OCC). In accordance with Title III of the Act, the transfer
occurred in July 2011.

As discussed below under the background section, our joint
reviews are mandated by Section 327 of Title III of the Act. Our
first joint review determined whether the Joint Implementation
Plan (Plan) for the transfer prepared by FRB, FDIC, OCC, and OTS
conformed to relevant Title III provisions. After the initial joint
review of the Plan, Section 327 requires that every 6 months we
jointly provide a written report on the status of the implementation
of the Plan to FRB, FDIC, and OCC, with a copy to the Congress.
This is our fourth joint status report issued under this requirement.

The objective of our current review was to determine and report on
the status of the implementation of the Plan. To accomplish our




Status of the Transfer of Office of Thrift Supervision Functions   Page 1
                       objective, we reviewed the actions FRB and OCC1 have taken to
                       implement the Plan since our last report, issued on September 26,
                       2012, through January 31, 2013. Our work focused on the items
                       related to the Plan that were ongoing or were not yet required to
                       be completed as identified in our last report. As part of our work,
                       we interviewed officials from FRB and OCC and reviewed relevant
                       documentation. We conducted our fieldwork from October 2012
                       through January 2013. Appendix 1 contains a detailed description
                       of our objective, scope, and methodology. A list of our prior joint
                       reports issued pursuant to Section 327 is provided as appendix 2.

                       In brief, we concluded that for the period reviewed (September 26,
                       2012, through January 31, 2013) procedures and safeguards were
                       maintained as outlined in the Plan to ensure that transferred
                       employees are not unfairly disadvantaged.


Background
                       Title III of the Dodd-Frank Act sets forth provisions to address
                       problems and concerns in the multiple agency financial regulatory
                       system by transferring OTS’s powers and authorities to FRB, FDIC,
                       and OCC on July 21, 2011 (the “transfer date”) and abolishing
                       OTS. All OTS functions related to federal savings associations, all
                       OTS rulemaking authority for federal and state savings
                       associations,2 and the majority of OTS employees transferred to
                       OCC; OTS’s supervisory responsibility for state-chartered savings
                       associations and OTS employees to support these responsibilities
                       transferred to FDIC;3 and OTS’s authority for consolidated
                       supervision of savings and loan holding companies and their
                       non-depository subsidiaries transferred to FRB. No OTS employees
                       were required to be transferred to FRB.




1
  In our last report, issued on September 26, 2012, we identified no ongoing issues related to FDIC’s
implementation of the Plan. Therefore, no additional review of the actions FDIC had taken to implement
the Plan was deemed necessary for this 6-month reporting period.
2
  In some instances, FDIC, as the federal banking agency for state savings associations, is authorized by
statute to issue regulations pertaining to state savings associations.
3
  FDIC accepted the transfer of other OTS employees to fill actual and, to a limited extent, other
anticipated vacancies.


                       Status of the Transfer of Office of Thrift Supervision Functions            Page 2
Section 327(a) of Title III required FRB, FDIC, OCC, and OTS to
jointly submit a plan within 180 days of enactment to Congress
and the Inspectors General of FRB, FDIC, and Treasury detailing the
steps necessary to implement the provisions of Sections
301 through 326. The Inspectors General and Congress received
the Plan fulfilling this requirement on January 25, 2011.

Section 327(b) of Title III required that within 60 days of receiving
the Plan, the Inspectors General of FRB, FDIC, and Treasury jointly
provide a written report to FRB, FDIC, OCC, and OTS, with copies
to Congress, that detailed whether the Plan conformed to the
requisite provisions and include any additional recommendations for
an orderly and effective process. The Inspectors General jointly
issued that report, Review of the Joint Implementation Plan for the
Transfer of Office of Thrift Supervision Functions, on March 28,
2011, fulfilling this requirement. Based on that review, we
concluded that the Plan generally conformed to the relevant
provisions of Title III. We noted, however, that the Plan did not
address the prohibition in Title III against the involuntary separation
or the involuntary reassignment of a transferred OTS employee
outside the employee’s locality pay area for 30 months (except
under certain circumstances). In response, the agencies amended
the Plan in April 2011.

Section 327(c) of Title III requires that, within 6 months of
Congress receiving the report, the Inspectors General of FRB, FDIC,
and Treasury must jointly provide a written report on the status of
the implementation of the Plan to FRB, FDIC, and OCC, with a
copy to Congress. Further, the Inspectors General of FRB, FDIC,
and Treasury must jointly provide such a written report every
6 months thereafter until all aspects of the Plan have been
implemented. The Inspectors General issued three reports on
September 28, 2011, March 21, 2012, and September 26, 2012,
respectively, under this requirement.

In the September 2011 report, we concluded that FRB, FDIC, OCC,
and OTS had substantially implemented the actions in the Plan that
were necessary to transfer OTS functions, employees, funds, and
property to FRB, FDIC, and OCC, as required. However, we
identified certain aspects of the Plan that were ongoing or were not
yet required to be completed as provided in Title III of the Act. In


Status of the Transfer of Office of Thrift Supervision Functions   Page 3
                       the March 2012 report, we concluded that FRB, FDIC, OCC, and
                       OTS implemented the actions in the Plan that were necessary to
                       transfer OTS functions, employees, and funds to FRB, FDIC, and
                       OCC, as appropriate. In this regard, all OTS property was
                       transferred to FRB, FDIC, and OCC; and procedures and safeguards
                       were in place at FDIC and OCC as outlined in the Plan to ensure
                       that transferred employees are not unfairly disadvantaged.
                       However, we identified certain items that were ongoing or were
                       not yet required to be completed as provided in Title III of the Act
                       related to (1) the procedures and safeguards in place to ensure that
                       transferred employees are not unfairly disadvantaged, (2) the
                       transfer of property, and (3) the collection of supervisory
                       assessments by FRB. In the September 2012 report, we concluded
                       that procedures and safeguards were in place as outlined in the
                       Plan to ensure that transferred employees are not unfairly
                       disadvantaged; and that the actions in the Plan that were
                       necessary to transfer OTS property to OCC were implemented.
                       However, as discussed below, we identified certain items related to
                       additional certification for certain transferred OTS examiners and
                       collection of supervisory assessments by FRB were still ongoing.

Results of the Joint Review
                       We concluded that procedures and safeguards as outlined in the
                       Plan to ensure that transferred OTS employees are not unfairly
                       disadvantaged were in place and maintained during this 6-month
                       reporting period. Following is an update to certain open items
                       discussed in our September 2012 report.

                       Additional OCC Certification for Certain Transferred OTS Examiners

                       In our prior reports, we identified that former OTS officials and
                       employees had expressed concerns related to OCC plans for
                       requiring additional certification for certain transferred OTS
                       examiners before they would be able to supervise national bank
                       examinations.4 We reported that OCC had contracted with a
                       consultant who identified differences between the OTS examiner



4
 FDIC did not require additional certification for transferred OTS examiners before they were able to
supervise FDIC-regulated bank examinations.


                       Status of the Transfer of Office of Thrift Supervision Functions           Page 4
                      accreditation process and the OCC Uniform Commission
                      Examination (UCE) process. We also reported that the consultant
                      was validating the UCE. In this regard, the consultant was
                      analyzing the duties of OCC’s recently revised National Bank
                      Examiner (NBE) position5 to determine whether necessary changes
                      were incorporated in the UCE. The consultant, in collaboration with
                      OCC, validated the revised UCE on April 12, 2012.

                      As an open item, we previously reported that OCC contracted with
                      the same consultant in October 2011 to assist in developing an
                      alternative qualification process for certain OTS examiners to
                      acquire the NBE commission without taking the full UCE; one that
                      would take the examiner’s experience into consideration. This
                      alternative process was to also include a process to certify existing
                      NBEs as qualified to lead examinations of federal savings
                      associations. As an update, we found that the consultant has
                      completed its study and that OCC implemented the alternative
                      qualification process and the revised UCE on January 14, 2013,
                      and January 28, 2013, respectively.

                      The alternative qualification process addresses the gaps between
                      the testing processes used to award the OCC NBE and OTS Federal
                      Thrift Regulator (FTR) credentials. Specifically, it addresses the
                      differences between national banks and federal savings
                      associations for examination purposes. To address these gaps,
                      OCC designed two cross-certification tests, one for NBEs to
                      demonstrate competency with federal savings associations
                      examinations and one for FTRs to demonstrate competency with
                      national bank examinations. As an additional requirement for the
                      NBE credentials, FTRs are required to complete a loan exercise that
                      was part of the legacy UCE but not part of the legacy FTR testing
                      program. The cross-certification tests were developed by a team
                      that included both OCC and former OTS examiners.

                      FRB Supervisory Assessments

                      As previously reported, for savings and loan holding companies and
                      bank holding companies with consolidated assets of $50 billion or


5
 National Bank Examiners certified under the new UCE are qualified to supervise both national banks
and federal savings associations.


                      Status of the Transfer of Office of Thrift Supervision Functions          Page 5
           more, and nonbank financial companies that FRB is required to
           supervise pursuant to the Dodd-Frank Act, FRB is to collect
           assessments, fees, or other charges equal to the expenses FRB
           estimates are necessary or appropriate to carry out its supervisory
           and regulatory responsibilities. To address this requirement, we
           reported in September 2012 that a notice of proposed rulemaking
           for the assessments, fees, and other charges was under review
           and expected to be available for public comment in the fourth
           quarter of 2012. As an update, the notice of proposed rulemaking
           is still under review and is expected to be published in the first
           quarter of 2013. The collection of assessments, fees, and other
           charges is anticipated to begin in 2013.

Management Response
           We provided a draft of this report to FRB, FDIC, and OCC. We
           received written responses from FRB and OCC and informal
           comments from FDIC.

           FRB stated in its written response that it is working diligently to
           complete the proposed rulemaking and expects the proposal will be
           issued by the end of the first quarter or the beginning of the
           second quarter. FDIC agreed with the conclusions contained in the
           report that FDIC has implemented the actions required to date in
           the Plan. OCC stated in its written response that it agrees with the
           conclusions in our report.

           FRB’s and OCC’s written responses are included in this report as
           appendices 3 and 4, respectively.

                                             *******

           We appreciate the courtesies and cooperation provided to our
           staffs during the audit. If you wish to discuss the report, you may
           contact Marla A. Freedman, Assistant Inspector General for Audit,
           Treasury OIG, at (202) 927-5400; E. Marshall Gentry, Assistant
           Inspector General for Evaluations, FDIC OIG, at (703) 562-6378; or
           Timothy P. Rogers, Acting Associate Inspector General for




           Status of the Transfer of Office of Thrift Supervision Functions   Page 6
                    Inspections and Evaluations, FRB OIG, at (202) 973-5042. Major
                    contributors to this report are listed in appendix 5.


/s/                             /s/                                       /s/

Eric M. Thorson                 Jon T. Rymer                             Mark Bialek
Inspector General               Inspector General                        Inspector General
Department of the               Federal Deposit Insurance                Board of Governors of the
Treasury                        Corporation                              Federal Reserve System
                                                                         and Consumer Financial
                                                                         Protection Bureau




                    Status of the Transfer of Office of Thrift Supervision Functions           Page 7
Appendix 1
Objective, Scope, and Methodology




As required by Title III, Transfer of Powers to the Comptroller of
the Currency, the Corporation, and the Board of Governors, of the
Dodd-Frank Wall Street Reform and Consumer Protection Act
(Dodd-Frank Act), the Board of Governors of the Federal Reserve
System (FRB), the Federal Deposit Insurance Corporation (FDIC),
the Office of the Comptroller of the Currency (OCC), and the Office
of Thrift Supervision (OTS) prepared a Joint Implementation Plan
(Plan) to accomplish the transfer of functions, employees, property,
and funds of OTS as well as implement other provisions of Title III.
We conducted this joint review to fulfill our requirement under
Section 327(c) of Title III. This section requires the Inspectors
General of FRB, FDIC, and the Department of the Treasury
(Treasury) to provide a written report on the status of the
implementation of the Plan every 6 months until all aspects of the
Plan are implemented. The period covered by our audit is
September 26, 2012, to January 31, 2013.

For the most part, as we jointly reported previously under the
above requirement, the Plan has been implemented in that the
functions, people, and property of OTS have transferred in
accordance with Title III and the Plan. However, there remain
certain open items and time-limited provisions impacting former
OTS employees that we continue to monitor. For this reporting
period, we reviewed

   certain items related to the collection of supervisory
    assessments by FRB, and
   additional certification requirements for certain transferred OTS
    examiners.

For FRB

   We interviewed senior supervisory financial analysts from the
    Division of Banking Supervision and Regulation and an Assistant
    Director from the Division of Financial Management.
   We reviewed relevant FRB documentation pertaining to
    supervisory assessments.




Status of the Transfer of Office of Thrift Supervision Functions   Page 8
Appendix 1
Objective, Scope, and Methodology




For OCC

   We interviewed the Senior Advisor for Examiner Workforce
    Planning for Midsize Community Bank Supervision.
   We reviewed the final report of the consultant hired by OCC to
    assist in developing an alternative qualification process for
    certain OTS examiners to acquire the National Bank Examiner
    commission without taking the full Uniform Commission
    Examination.

In our last report, issued on September 26, 2012, we identified no
ongoing issues related to FDIC’s implementation of the Plan. In
addition, FDIC has not been advised of any new issues regarding
the Plan. Therefore, FDIC OIG did not perform field work for this
6-month reporting period.

Consistent with our objective, we did not assess FRB’s or OCC’s
overall internal control or management control structure; obtain
data from their information systems; or assess the effectiveness of
their information system controls. We conducted our fieldwork at
FRB and OCC in Washington, DC, from October 2012 to January
2013.

We conducted this performance audit in accordance with generally
accepted government auditing standards. Those standards require
that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and
conclusions based on our audit objective. We believe that the
evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objective.




Status of the Transfer of Office of Thrift Supervision Functions   Page 9
Appendix 2
Joint Reports Issued Pursuant to Section 327




Review of the Joint Implementation Plan for the Transfer of Office
of Thrift Supervision Functions; OIG-11-064, Department of the
Treasury (Treasury) Office of Inspector General (Treasury OIG); FRB
OIG 2011-02, Board of Governors of the Federal Reserve System
and Consumer Financial Protection Bureau OIG (FRB OIG);
EVAL-11-002, Federal Deposit Insurance Corporation OIG (FDIC
OIG) (Mar. 28, 2011)

Status of the Transfer of Office of Thrift Supervision Functions,
OIG-11-109, Treasury OIG; FRB OIG 2011-04, FRB OIG;
EVAL-11-005, FDIC OIG (Sep. 28, 2011)

Treasury OIG, FRB OIG, and FDIC OIG, Status of the Transfer of
Office of Thrift Supervision Functions: OIG-12-046, Treasury OIG;
FRB OIG 2012-01, FRB OIG; EVAL-12-004, FDIC OIG (Mar. 21,
2012)

Treasury OIG, FRB OIG, and FDIC OIG, Status of the Transfer of
Office of Thrift Supervision Functions; OIG-12-075, Treasury OIG;
FRB OIG 2012-09, FRB OIG; AUD-12-015, FDIC OIG (Sep. 26,
2012)




Status of the Transfer of Office of Thrift Supervision Functions   Page 10
Appendix 3
FRB Management Comments




Status of the Transfer of Office of Thrift Supervision Functions   Page 11
Appendix 4
OCC Management Comments




Status of the Transfer of Office of Thrift Supervision Functions   Page 12
Appendix 5
Major Contributors to This Report




Board of Governors of the Federal Reserve System and Consumer
Financial Protection Bureau Office of Inspector General (OIG)

    Kyle Brown, OIG Manager
    Jonathan Park, Auditor and Project Lead
    Amanda Sundstrom, Auditor

Federal Deposit Insurance Corporation OIG

    A. Michael Stevens, Evaluations Manager
    Travis Sumner, Auditor

Department of the Treasury OIG

    Susan Barron, Audit Director
    Alicia Bruce, Audit Manager
    John Tomasetti, Auditor-in-Charge
    James Lisle, Referencer




Status of the Transfer of Office of Thrift Supervision Functions   Page 13
Appendix 6
Report Distribution




Board of Governors of the Federal Reserve System

    Chairman

Federal Deposit Insurance Corporation

    Chairman

Department of the Treasury

    Deputy Secretary
    Office of Strategic Planning and Performance Management
    Office of the Deputy Chief Financial Officer, Risk and Control
       Group

Office of the Comptroller of the Currency

    Comptroller of the Currency
    Liaison Officer

Office of Management and Budget

    OIG Budget Examiner

United States Senate

    Chairman and Ranking Member
    Committee on Banking, Housing, and Urban Affairs

U.S. House of Representatives

    Chairman and Ranking Member
    Committee on Financial Services




Status of the Transfer of Office of Thrift Supervision Functions   Page 14
